5316
In the Supreme Court of the United States
IN RE TARYN CHRISTIAN

Supre

Petitioner

JUM 2 9 2021

On Petition for a Writ of Mandamus
to the United States Court of Appeals for the Ninth Circuit

PETITION FOR A WRIT OF MANDAMUS

TARYN CHRISTIAN
A4004046 JA-62
Saguaro Correctional Center
Eloy, AZ. 85131
PH: (520) 464 0500

RECEIVED
AUG - 5 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

QUESTIONS PRESENTED
This case presents the kind of extraordinary circumstances in which this Court
exercises its discretionary authority to issue a writ of mandamus. The justification
for considering a writ of mandamus in this context is strengthened by the fact that
the unusual circumstances of this case would be unlikely to arise frequently.
This Court held in McCoy v. Louisiana, 138 S. Ct. 1500 (2018) that the Sixth
Amendment guarantees a defendant the right to choose “the objective of his defense
and to insist that his counsel refrain from admitting guilt” even if doing so is
considered part of counsel's trial strategy. McCoy, 138 S. Ct. at 1505.
Petitioner, Taryn Christian, like Robert McCoy, made it clear beyond any
doubt, both to his lawyer, and the trial court, that he chose to defend against the
charges and assert his innocence. This was especially clear where he plead not guilty,
and the defense had proffered three witnesses to testify that a third-party had
confessed to the murder. Yet, over petitioner’s express objection and request to testify
before closing argument, trial counsel reversed the defense’s position from its opening
statement arguing actually innocence, to then, in closing summation, argued
petitioner had committed the murder—but had acted in “self-defense.”
Upon habeas review, the district court granted relief under Chambers v.
Mississippi, 410 U.S. 284 (1973), finding petitioner was denied his right to present a
defense of a third-party’s confession to the crime—holding that the credibility of
corroborating “confession” witnesses was for the jury to decide and not the trial court.
In denying petitioner’s Sixth Amendment [autonomy] claim, the district court
attached no constitutional significance to a defendant’s protected right to insist that
counsel not concede guilt or the “structural” error that resulted from its violation.
Applying a narrow reading of Strickland, the habeas court held that trial counsel’s
actions in closing argument was “reasonable” strategy under Strickland, on the
grounds that the trial court had excluded three witnesses from testifying to a thirdparty’s admissions. The district court’s reasoning reflects the conclusion that defense
counsel, not the defendant, controlled the decision whether to admit guilt. Such
reasoning posited a conflict between the Sixth Amendment right to defend against
the charges and that of having the assistance of counsel.
A decade later, petitioner filed a timely Rule 60(d)(1) independent action in the
district court invoking McCoy under the “grave miscarriage of justice” standard in
United States v. Beggerly, 524 U.S. 38 (1998). The district court transferred the
motion to the Court of Appeals as an unauthorized “application” to file an SOS
petition. Without relying on precedent, a three-judge panel designated the Rule
60(d)(1) as a successive “application” subject to the constraints of 28 U.S.C.
2244(b)(1). In its decision, the three-judge panel took the unprecedented step to
ignore the 2008 habeas judgment altogether, and instead, assumed the district court’s
role as factfinder in the first instance—to decide “facts” contrary to the record. In this
endeavor, the panel held that trial counsel "never conceded Christian's guilt” by
i

reasoning, that “throughout the trial” counsel argued “that Christian was innocent
and contested the state’s identification of Christian” as the one who stabbed the
victim. Christian v. Thomas, No. 19*70036 (9th Circuit December 14, 2020). By
substituting its own judgment over that of the district court, the panel improperly
engaged in independent fact-finding outside of the record. As the record documents
trial counsel admitted identification, and in jaw dropping performance in re-enacting
the stabbing, argued that under great duress petitioner had committed the murder
in “self-defense.”
In deciding that petitioner had failed to make a prima facie showing that the
“facts” of his case “relies on” McCoy, the panel rejected petitioner’s argument that
McCoy announced a new constitutional rule that should be applied retroactively to
cases on collateral review. In deciding the Supreme Court had not made McCoy
retroactive, the Ninth Circuit disregarded that the California Supreme Court has
designated McCoy as being retroactive, thereby creating a substantial federal right
protected by the Fourteenth Amendment.
Moreover, the Ninth Circuit refused to permit consideration of the exceptional
posture of the case which is governed by this Court’s decision in Stewart v. MartinezVillareal, 523 U.S. 637 (1998), where, despite petitioner’s diligent efforts for over a
decade, the district court has failed to rule on his Brady claims that were presented
in his original habeas application and in subsequent 60(b) motions. For over a decade,
petitioner has unsuccessfully argued to the courts below that the prosecutors’
withholding of critical eyewitness identifications of the initial suspect in violation of
Brady v. Maryland, 373 U.S. 83 (1963), is inextricably intertwined with his ineffective
assistance of counsel claims under Strickland. The Ninth Circuit abused its discretion
in refusing to consider the unique posture, because under Martinez-Villareal,
petitioner’s Rule 60(d)(1) independent action cannot be characterized as an
unauthorized “application” to file a SOS petition. After manifestly misstating the trial
record, the three-judge panel held 28 U.S.C. 2244(b) bars rehearing, leaving in place
an erroneous judgment as Ninth Circuit authority involving McCoy’s application. In
sum, petitioner has been denied the right to the Writ, which includes the right to
meaningful review.
The questions presented are:
I.

Whether the statute of 28 U.S.C. § 2244(b)(3)(E) on its face, as applied here, is
unconstitutional.

II.

Whether the constitutional right to due process of law and this Court’s holding
in Stewart v. Martinez Villareal, 523 U.S. 637 (1998), require the Ninth Circuit
to consider the exceptional posture where a petitioner has been denied a ruling
on his Brady claims that were presented in his original § 2254 application (and
in subsequent motions), when the failure to do so precludes a habeas petitioner
from ever receiving an adjudication of his constitutional claims on the merits.

ii

A.

III.

Whether the Ninth Circuit abused its discretion in holding a Rule 60(d)(1)
independent action constitutes an unauthorized “application” to file a
successive habeas corpus petition as a matter of law, in square conflict with
decisions of this Court, and other circuits.

Whether McCoy announced a new rule of constitutional law that should be
made retroactive to cases on collateral review, as required to file a successive
petition for a writ of habeas corpus under 28 U.S.C. 2244(b)(2)(A).

iii

PARTIES TO THE PROCEEDINGS
The following were parties to the proceedings in the United States Court of
Appeals for the Ninth Circuit1.

Taryn Christian was the Petitioner in the district court and in the Court
of Appeals.

2.

Todd Thomas was the named Respondent in the district court and in the
Court of Appeals.

The following are parties to the proceeding in this Court:
1.

Taryn Christian is the Petitioner.

2.

The United States Court of Appeals for the Ninth Circuit is the
Respondent.

iv

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

TABLE OF AUTHORITIES

vn

OPINIONS AND ORDERS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED

2

INTRODUCTION

2

STATEMENT OF THE CASE

2

A. Trial Proceedings

2

B. Habeas Corpus Proceedings

7

C. Ninth Circuit Proceedings

10

D. Underlying Rule 60(b) Proceedings in 2011, 2013 and 2017

10

REASONS FOR GRANTING THE PETITION

13

1. Petitioner Cannot Obtain Relief from Any Other Court or Forum

13

2. The Panel in its Decision Exceeded the Scope of its Statutory
Authority Under 28 U.S.C. § 2244(b).........................................

14

3. Mandamus Aids the Court’s Appellate Jurisdiction When It
Prevents a Lower Court from Exceeding Its Lawful Authority

15

ARGUMENT
I.

15

THE COURT SHOULD GRANT A WRIT OF MANDAMUS IN
THE RARE CIRCUMSTANCE WHERE THE STATUTE OF
28 U.S.C. § 2244(b)(3)(E), ON ITS FACE, AS APPLIED HERE,
IS UNCONSTITUTIONAL............................................................
A. As a Prima Facie Matter, Petitioner’s Sixth Amendment Claim Argued
in his Rule 60(d)(1) Independent Action and Supported by the District
Court’s 2008 Habeas Judgment Plainly “Relies On” McCoy....................
V

15

16

TABLE OF CONTENTS
-continuedB.

The Ninth Circuit’s Decision Creates Exceptional Circumstances
Warranting Mandamus.....................................................................
(i)

II.

The Three-Judge Panel Exceeded its Statutory Authority in its
“Gatekeeping” Function by Assuming the Role as Factfinder in
the First Instance—To Find “Facts” Outside the Record—
Ultimately Substituting its Own Judgment and Rendering
the Habeas Proceedings Meaningless...........................................

Page

19

19

THE COURT SHOULD GRANT MANDAMUS, WHERE THE
DECISION IN STEWART V MARINEZ- VILLAREAL, (1998),
CONTROLS THE POSTURE OF THE CASE-WHEN THE
FAILURE TO DO SO WILL PRECLUDE PETITIONER FROM
EVER RECEIVING A RULING OF HIS CONSTITUTIONAL
CLAIMS ON THE MERITS............................................................

22

A. Pursuant to Stewart v. Martinez-Villareal, Petitioner’s
Rule 60(d)(1) Independent Action Cannot be Designated as
an Unauthorized Successive Habeas Corpus Petition..........

22

B.

(i) McCoy Necessitates Adjudication of Petitioner’s Brady
Claims as They Lie at the Heart of Trial Counsel’s Actions
in Overriding Petitioner’s Express Objective to Maintaining
Innocence...................................................................................

24

(ii) The Prosecutors’ Suppression of Eye-Witness Identifications
Corroborating a Third-Party’s Confessions Violates Brady...

25

The Ninth Circuit Erred in Holding That a Rule 60(d)(1)
Independent Action Constitutes an Unauthorized “Second
or Successive” Habeas Application as a Matter of Law, in
Square Conflict with Decisions of this Court and of Other
Circuits....................................................................................

27

(0 Failing to Heed the Doctrine of Constitutional Avoidance
Raises “Grave and Doubtful Constitutional Questions”
Concerning Suspension of the Great Writ and Due Process

29

vi

TABLE OF CONTENTS
-continuedIII.

Page

THE COURT SHOULD GRANT MANDAMUS AND DECIDE
WHETHER MCCOYANNOUNCED A NEW RULE OF
CONSTITUTIONAL LAW THAT SHOULD BE MADE
RETROACTIVE TO CASES ON COLLATERAL REVIEW,
AS REQUIRED TO FILE A SUCCESSIVE PETITION FOR A
WRIT OF HABEAS CORPUS UNDER28 U.S.C. 2244(b)(2)(A)

30

A. The Ninth Circuit Decision Did Not Consider the Fact That
California Has Designated McCoy as Being Retroactive,
Thereby Creating a Substantial Federal Right Protected
by the Fourteenth Amendment...............................................

30

CONCLUSION

32

CERTIFICATE OF COMPLIANCE

33

CERTIFICATE OF SERVICE

34
LIST OF APPENDICES

APPENDIX A:

Order of the United States Court of Appeals for the Ninth Circuit
Denying Request for Extension of Time to Petition for Rehearing
to Address the Court’s Error in Misstating the Record,
dated December 30, 2020:

APPENDIX B:

Published Decision of the Ninth Circuit Denying Transferred
Rule 60(d)(1) Independent Action invoking McCoy as an
Unauthorized Application to file Successive Habeas Petition,
dated December 14, 2020:

APPENDIX C:

Transfer Order of the United States District Court for the
District of Hawaii, dated January 4, 2019:

APPENDIX D:

Order of the United States District Court for the District of
Hawaii, Granting in Part and Denying in Part Habeas Relief,
dated September 30, 2008:

vii

TABLE OF AUTHORITIES
Page(s)

Cases
Abdur’Rahman v. Bell,
537 U.S. 88,94(2003).

28

Boumediene v. Bush,
553 U.S. 723 (2008)..

16

Bowen v. Maynard,
799 F.2d 593, 610 (10th Cir. 1986)

26

Brady v. Maryland,
373 U.S. 83 (1963)..

8, 10,11,14,23,24,25

Bennett v. United States,
119 F.3d 468, 469 (7th Cir. 1997)

17

Breakiron v. Horn,
642 F.3d 126 132 (3rd Cir, 2011)

25

Boyette v. Lefevre,
246 F.3d 76, 92 (2d Cir. 2011)

26

Castro v. United States,
540 U.S. 375 (2003).......

29

Cargle v. Mullin,
317 F.3d 1196, 1200 (10th Cir. 2003)

25

Chambers v. Mississippi,
410 U.S. 284 (1973).........

7,9,10

Cheney v. U.S. Dist. Court for the Dist. of Columbia,
542 U.S. 367, 380 (2004)..............................................
Christian v. Frank,
595 F.3d. 1076 (9th Cir. 2010)

13,15
10

Christian v. Frank,
365 F. App.'x 877 (9th Cir. 2010)

10

viii

TABLE OF AUTHORITIES
-continuedCases

Page(s)

Christian v. Frank,
131 S.Ct. 511 (2010)

10

Crivens v. Roth,
172 F.3d 991, 998, 999 (7th Cir. 1999)

26

Danforth v. Minnesota,
552 U.S. 264 2008)......

30

Donnelly v. United States,
228 U.S. 708 (1913)...........

27

De Beers Consol. Mines, Ltd. v. United States,
325 U.S. 212, 217(1945).....................................

13

Felkerv. Turpin,
518 U.S. 651 {1996)

21

Fordv. Wain wright,
477 U.S. 399 (1986).

22,23

Gigho v. United States,
405 U.S. 150, 154 (1972)

26

Gonzalez v. Crosby,
545 U.S. 524, 532 (2005)

11,28

Henry v. Spearman,
899 F3d 703, 705-08 (9th Cir. 2018)

18

Herring v. New York,
422 U.S. 853, 862 (1975)

31

I.N.S. v. St. Cyr,
533 U.S. 289, 302 (2001)

16

In re Gomez,
45 Cal.4th 650, 655, fii. 3 (Cal. 2009)

30

ix

TABLE OF AUTHORITIES
-continuedCases

Page(s)

In re Hoffher,
870 F.3d 301, 307 (3d Cir. 2017)

18

In re Hubbard,
825 F.3d 225, 231 (4th Cir. 2016)

18

In re Johnson,
3 Cal.3d 404, 415 (Cal. 1970)

30

In re Smith,
49 Cal.App.5th 377 (2020)

30,31

In re Williams

759 F.3d 66, 72 (D.C. Cir. 2014)

18

INS. v. St. Cyr,

533 U.S. 289, 302 (2001)

16

McCoy v. Louisiana,

138 S. Ct. 1500 (2018)

12,15,16,18,24-31

Mobley v. Head,
306 F.3d 1096 (llth Cir. 2002)

28

Panetti v. Quarterman,
551 U.S. 930(2007)......

22,25

Phillips v. Woodford,
267 F.3d 966, 974 (9th Cir. 2001).................................

8

Pickford v. Talbott,
225 U.S. 651, 657, 32 S.Ct. 687, 56 L.Ed. 1240 (1912)

27

Rodwell v. Pepe,
324 F.3d 66, 70 (1st Cir. 2003)

28

Rock v. Arkansas,
483 U.S. 44 (1987)

8

x

TABLE OF AUTHORITIES
-continuedCases

Page(s)

Roche v. Evaporated Milk Assn,
319 U.S. 21, 26 (1943).................

15

Schlup v. Delo,
513 U.S. 298 (1995)

8

Schriro v. Summerlin,
542 U.S. 348, 351, 124 S.Ct. 2519, 159 L.Ed. 2d 442 (2004)
Solomon v. DeKalb County, Georgia,
154 Fed. Appx. 92 (llth Cir. 2005)...

30,31
28

Stewart v. Martinez-Villareal,
523 U S. 637 (1998),................

12,14,22,23,24

Strickland v. Washington,
466 U.S. 668 (1984)..........

8,24

Teague v. Lane,
489 U.S. 288, 300-301 (1989)

31

U.S. Alkah Export Ass’n v. United States,
325 U.S. 196, 201-02 (1945).......................

13

United States v. Agurs,
427 U.S. at 113 n.21(1976)

26

United States v. Bagley,
473 U.S. 667, 675, 105 S.Ct. 3375, 87 L.Ed.2d 481 (1985)

25

United States v. Beggerly,
524 U.S. 38 (1998).............

12,19,27

United States v. Mitchell,
518 F.3d 740, 746-47 & 747 n. 9 (10th Cir. 2008)

25

United States v. Serv. Deli Inc.,
151 F.3d 938, 941 (9th Cir. 1998)

26

xi

TABLE OF AUTHORITIES
-continuedCases

Page(s)

Woratzeck v. Stewart,
118 F.3d 648, 650 (9th Cir. 1997)

17

Will v. United States,
389 U.S. 90, 95-96 (1967)

14

United States v. U.S. Dist. Ct. for S.D. ofN.Y.,
334 U.S. 258, 263 (1948).....................................

14

Wiley v. Sowders,
647 F.2d 642, 560 (6th Cir. 1981)

17

Whorton v. Bockting,
549 U.S. 406 (2007)...

31

CONSTITUTIONAL PROVISIONS:
U.S.
U.S.
U.S.
U.S.

Const,
Const,
Const,
Const,

passim
passim
passim
.passim

art. I, sec. 9 ..
art. Ill, sec. 2
amend V......
amend XIV....

STATUTES:
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.
28 U.S.C.

§
§
§
§
§
§
§
§
§

1651..............
2244(b).........
2244(b)(1).....
2244(b)(4)....
2244(b)(3)(A).
2244(b)(3)(C)
2244(b)(3)(D)
2244(b)(3)(E)
2254............

............. 1,13,15,21
2,12,14,16,18,19,23
29
18
16,17
17
17
16,17,21
7,16

Fed. R. Civ. P. 60(b)........
Fed. R. Civ. P. 60(b)(3)(6)
Fed. R. Civ. P. 60(d)(1)....

10,16
11
12,16,18,23,29

RULES:

xii

TABLE OF AUTHORITIES
-continuedCases

Page(s)

Fed. R. Civ. P. 60(d)(3)

10

OTHER AUTHORITIES:
Victor Bass, Comment, Brady v. Maryland and the Prosecutor’s Duty to
Disclose, 40 U. Chi. L. Rev. 112, 125 (1972))................................................

xiii

26

PETITION FOR A WRIT OF MANDAMUS
Petitioner, Taryn Christian, respectfully petitions for a writ of mandamus to
the United States Court of Appeals for the Ninth Circuit.
OPINIONS AND ORDERS BELOW
The order of the Ninth Circuit Court of Appeals’ denying an extension of time
to petition for rehearing to address the court’s error in misstating material facts in
the record, essential to its “gatekeeping” function under § 2244(b) entered on
December 30, 2020, is attached as Appendix A. The panel’s published decision
designating petitioner’s transferred Fed. R. Civ. P. Rule 60(d)(1) independent action
as an “application” to file a “second or successive” habeas petition entered on
December 14, 2020, is attached as Appendix B. The district court’s transfer order
entered on January 4, 2019, is attached as Appendix C. The district court’s habeas
judgment issued on September 30, 2008, is attached as Appendix D.
STATEMENT OF JURISDICTION
The Ninth Circuit issued its order denying a request for rehearing on
December 30, 2020. (Appendix A.) On March 19, 2020, this Court extended the time
within which to file any petition for a writ of certiorari due on or after that date to
150 days from the date of the lower court judgment. A petition for a writ of
certiorari was filed on May 26, 2021. Per notice from the Court upon receipt of
petitioner’s amended petition received on June 29, 2021, petitioner submits his
petition for a writ of mandamus on July 29, 2021. This Court’s jurisdiction is timely
invoked under the All Writs Act, 28 U.S.C. § 1651, and Rule 20 of the Rules of the
Supreme Court of the United States.
1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involves U.S. Const, art. I sec. 9 (Suspension Clause); U.S. Const.
amend. V (Due Process Clause); U.S. Const, amend. VI (Sixth Amendment right to
counsel); U.S. Const, amend. XIV (Due Process and Equal Protection of Law);
Federal Rule of Civil Procedure 60(b); Rules Governing Section 2254 Cases; the
Antiterrorism and Effective Death Penalty Act of 1996, Pub. L. No. 104-132, 110
Stat. 1214 (Apr. 24, 1996); and 28 U.S.C. § 2244. See Attached Appendix E.
INTRODUCTION
In this case, a Ninth Circuit three-judge panel exceeded its authority in its
“gatekeeping” function under 28 U.S.C. § 2244(b), and as a direct consequence,
created the exceptional circumstances that warrant mandamus review. A court can
exceed its jurisdiction by going beyond the bounds of its statutory instructions, not
just by engaging in wholly unauthorized activity.
STATEMENT OF THE CASE
A. Trial Proceedings
In 1997, petitioner was convicted in Hawaii state court of second-degree
murder and sentenced to life imprisonment. Before trial, petitioner’s court
appointed lawyer, Anthony Ranken, proffered to the trial court that the defense
would call three witnesses to testify that James Burkhart, the initial suspect in the
murder, had confessed to committing the fatal stabbing of Vilmar Cabaccang on
July 14, 1995. Petitioner’s requests for expert examination of critical audio and
video recordings and independent DNA testing were denied.
On the morning before trial, Mr. Ranken produced a contractual letter to
2

petitioner requesting his signed consent authorizing counsel to admit identification
and to argue “self-defense” to the charge of murder in the second degree, and
attempted theft. Petitioner refused consent, insisting counsel argue his innocence
which was supported by evidence that Burkhart had “bragged” to many of his
friends that he had fatally stabbed Cabaccang. (App. C: p.69-70 of 15V Ranken’s
Letter Requesting Signed Consent). In his opening statement, counsel told the jury
that petitioner was innocent of the murder, stating “that there was another man
there” whom the prosecutors had not mentioned—a man known to Cabacang and his
girlfriend. (App. C: p.7180 - Ranken’s Opening Statement).
After trial commenced, petitioner informed the trial court that an
irreconcilable “conflict of interest” existed with counsel that compelled his
immediate withdrawal. The trial court ignored petitioner’s concerns. After the state
had rested, the trial court held an in chambers hearing to examine the
corroborating factors involving 3 witnesses proffered to testify that James Burkhart
admitted committing the fatal stabbing of Cabaccang, and had implicated
Cabaccang’s [new] girlfriend, Serena Seidel, in giving him the keys to enter
Cabaccang’s vehicle. During the hearing, Burkhart asserted his Fifth Amendment
privilege, while prosecutors argued that the “confession” witnesses were “not
reliable or trustworthy” because, “no witnesses had identified Burkhart from any
photographic arrays” and “two witnesses”placed him somewhere else at the time of
the crime. Adopting the state’s argument, the trial court excluded the corroborating
witnesses from testifying for the defense. Before the commencement of closing

3

argument, petitioner requested to testify as his own witness. His request was
denied. The trial court told petitioner that if he spoke up against his attorney, he
would be permanently removed from the courtroom and the trial.
In closing argument, Mr. Ranken defied his client, and without petitioner’s
signed consent reversed the defense’s position from his opening statement arguing
petitioner’s actual innocence—demonstrating a dire conflict with petitioner’s wishes
to maintain his innocence against the state’s charges. In a jaw-dropping
performance, counsel went to task to accomplish exactly what he acknowledged [in
his letter] was against petitioner’s wishes. At the outset, trial counsel admitted
identification, despite that the state’s key independent witness, Phillip Schmidt,
had described the responsible to detectives as having ‘long stringy hair in the back”
and despite Schmidt’s testimony that Cabaccang acknowledged to him, that the
male seen “walking” down the sidewalk was Cabaccang’s attacker. Counsel argued:
(App. C: p. 87) (emphasis supplied).
... Phil Schmidt sa w Taryn lea ving the area. We don’t dispute that he
did see Taryn under street Hght with the flanneljacket that Taryn wore.
He saw Taryn leave the area ...
Thereafter, counsel went on to concede petitioner’s guilt by arguing that
while under “great duress” after being caught for stealing, petitioner had “stabbed”
Cabaccang in “self-defense.” (App. C: pp. 96; 98; 100; of 151) (emphasis added).
... I’ve got to move on, and know it’s - this is the hardest thing for a
lawyer to do because now you’re going to say well, Mr. Ranken, you are
contradicting yourself. You just told us that Taryn didn’t doit, and now
you’re talking about well he did it, in self-defense, whatever...
... He’s never been in trouble with the law before, and he’s facing
4

apprehensions. He is facing the shame ofbeing caught for stealing...
He is facing the fear ofgoing to jail...
...There was after that --after Taryn felt the pain of his own blood being
drawn, after he felt the knife against his belly that he grabbed that knife
only to again - I submit to you it was then that Taryn, the terrified
teenager, took his own knife out ofits sheath to defend himself.
None of this information argued by trail counsel was supported by any
eyewitness or by petitioner. There were no cuts or wounds on petitioner as counsel
described. Earlier, counsel represented that [he] did not know what happened. Yet,
he argued specific details not supported by any evidence, providing a theory that
was substantially similar to that of the prosecution, and in effect, testified for the
prosecution. (App. C: pp. 111-113; 115; 122-124; 132 of 151).
...And it looks like he was acting in self-defense, never really realizing
the harm that he was inflicting because he could not see the harm he
was inflicting. He did not know where that knife was landing... Blindly,
without being able to see, just stabbing behind his own back...
... And at some point in the struggle, Vilmar was getting the best of
Taryn. Taryn had the knife, and Taryn defended himself.
...It was reckless. At best it was reckless. At best not intentional.
He didn’t know that he was doing that. He didn’t know that he was
inflicting wounds that would cause someone’s death...
Nearing the end of his closing, counsel, again, admits identification:
... And remember finally what Phil Schmidt said. Phil Schmidt told you
that Vilmar was trying to get up... First he got up to show Phil to look
at Taryn -■ the man he saw fleeing.
During his summation, trial counsel profoundly separated himself from his
client when he stated to the jury, “I don’t really know what happened.” This was
undoubtedly against the best interests of petitioner, as counsel, prosecutor and the

5

trial court, were fully aware that petitioner had requested his right to testify before
closing argument. (App. C: p. 136)
... I ask myselfifI do put my client on the stand, are you going to
believe him anyway? Ifsomeone’s facing a charge this serious, are you
going to believe whatever he says, or are you going to figure that he’ll
say whatever he needs to say to try get acquitted. I figure there’s not
much point in putting him on the stand.
After telling the jury that he didn’t really know what happened that night,
counsel’s comments as to the irrelevance of his client’s testimony was profoundly
prejudicial and cannot be considered harmless error. His concession to the jury that
while petitioner was pinned down under the weight of Cabaccang, he was just,
‘blindly; without being able to see, just stabbing behind his own back” does not
demonstrate mere negligence in the presentation of his client’s case or a “strategy”
to gain a favorable result that misfired. Instead, counsel’s statements lessened the
government’s burden of persuading the jury that petitioner was the person who
stabbed Cabaccang. In yet another instance of counsel’s concession to the jury that
his client was the perpetrator, he states^ “He’s never been in trouble...He’s facing
shame of being caught for stealing... "Again, when counsel made this claim to the
jury, implying and confirming for them that his client was a thief and had
unlawfully entered Cabaccang’s vehicle, he ceased to function as defense counsel.
Trial counsel’s conduct cannot be considered a tactical admission in order to
persuade the jury to focus on a defense, such as the one of “self-defense.” When
counsel abandoned his duty of loyalty to his client and effectively joined the state in
their effort to attain a conviction, he suffered an obvious conflict of interest. Thus,

6

when counsel failed to subject the prosecution’s case to meaningful adversarial
testing, there was a denial of Sixth Amendment rights that makes the adversary
process itself presumptively unreliable. After petitioner was convicted of seconddegree murder and attempted theft, Mr. Ranken filed a motion for new trial
representing a reversal of his position during summation. In his motion, counsel
shifts blame to the trial court. (Dkt. 1-2: Exhibit #47-F). Counsel wrote at #1 and #21. When Defendant Requested a New Attorney in the Middle of The Trial,
the Court Failed to Conduct the Required “Penetrating and Comprehensive
Examination” of the Defendant to Determine the Basis of His Request.
2. When Defendant Informed the Court Before Closing Arguments That
He Wished to Testify Before the Jury, the Court Should Have Reopened
the Evidentiary Portion of The Trial to Allow Defendant to Testify.
In Mr. Ranken’s Affidavit, he wrote at #3: (Dkt. 1-2: Exhibit # 52-A).
3. If allowed to testify, Defendant would have denied being the person
who stabbed Vilmar Cabaccang and would have told the jury about
the presence of a third man at the scene of the stabbing.
In his Affidavit, Mr. Ranken concedes that his representation of petitioner at
trial and his closing argument was inconsistent with what petitioner would have
testified to under oath. The trial court denied the motion for new trial and the
Hawaii Supreme Court upheld petitioner’s conviction.
B. Habeas Corpus Proceedings.
Petitioner filed a timely petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254, challenging his 1997 conviction in December 2004. A hearing was
held in 2008. Petitioner’s § 2254 claims included: l) the denial of the right to
present a defense under Chambers v. Mississippi, 410 U.S. 284 (1973); 2) the denial

7

of the right to testify under Rock v. Arkansas, 483 U.S. 44 (1987); 3) ineffective
assistance of counsel under Strickland v. Washington, 466 U.S. 668 (1984); actual
innocence under Schlup v. Delo, 513 U.S. 298 (1995); and violations of Brady v.
Maryland.\ 373 U.S. 83 (1963).
Before the hearing, petitioner's habeas counsel argued in his Brief Regarding
Evidentiary Issues on July 19, 2008, that as the case progressed, new evidence
directly implicating Burkhart continued to emerge, specifically as it related to the
state's withholding of evidence of “prior identifications” by witnesses, Phillip
Schmidt and Annie Leong. (Dkt. #122 at p. 2-6) (emphasis added).
“Presented contemporaneously with this brief is evidence that one of the
eyewitnesses, Phillip Schmidt, believes James Hina Burkhart to be the
person who he saw running from the scene of the stabbing. In Exhibit B
to the affidavits and exhibits filed on July 18, 2008, Schmidt states his
belief that the person who had fled was in fact Burkhart. New evidence
regarding former Gas Express employee Annie Leong, especially when
coupled with prior evidence regarding Schmidt, indicates that withholding
of exculpatory evidence of prior identifications prejudiced Christian. Exhibit
E to the July 18, 2008 affidavits and Exhibits indicates that Annie Leong
identified a photograph of a person she saw come into the Gas Express
with an injured hand. Since Leong would have been interviewed a time
prior to Christian becoming a suspect, that person undoubtedly was not
Christian and that information would have been exculpatory. Since neither
the fact of these identifications of another person nor the identity or
identities of the persons in the photographs was revealed to the defense.
exculpatory evidence was unlawfully withheld to the prejudice of Christian...
The evidence that Leong and Schmidt had previously identified a different
person should have been revealed under the principles of Brady v. Maryland,
373 U.S. 83 (1963). Again, there appears to be no remedy still available for
this issue in state court. Phillips v. Woodford, 267 f.3d 966, 974 (9th Cir.
2001)...”
The prosecutors denied the Brady allegations, arguing that witness, Phillip
Schmidt’s 2008 identification of Burkhart was nothing more than a highly
8

suspicious “recantation” of his initial identification. (Dkt. #125: 15-16) On August
29, 2008, the Magistrate Judge issued her Findings and Recommendations to grant
the petition in part and deny in part. In denying petitioner’s Six Amendment
[autonomy] claim involving trial counsel’s change in the defense’s position and
concession of guilt over petitioner’s objection, the magistrate judge concluded that
counsel’s “strategic decision” to argue self-defense was “objectively reasonable” on
the ground the trial court had excluded the Burkhart confession witnesses from
testifying. (App. C: pp. 142-147 of 151). The magistrate wrote:
At the outset of trial, the defense’s strategy was to establish that Petitioner
did not kill Cabaccang. By the time of closing arguments, however, trial
counsel apparently altered the defense’s strategy and presented self-defense
and extreme emotional disturbance as alternative arguments. This Court
finds that, under the circumstances of the trial, this decision was within
“the wide range of professionally competent assistance.” See Strickland, 466
U.S. at 690. As discussed, supra, Burkhart invoked the Fifth Amendment
when called as a defense witness and the trial court excluded the witnesses
who would have testified that Burkhart confessed to killing Cabaccang.
These events certainly hurt the defense’s ability to establish that another
person, namely Burkhart, killed Cabaccang. Trial counsel’s strategic decision
to also argue self-defense and extreme emotional disturbance was objectively
reasonable under the circumstances.
The District Court adopted the magistrate’s recommendations and granted
habeas relief pursuant to Chambers v. Mississippi on September 30, 2008, holding
petitioner was denied his constitutional right to present a defense of a third-party’s
confessions to the murder. The District Court wrote: (App. D at p. 28).
This Court also finds on a de novo review that a change of the theory of
defense did not fall below an objective standard of reasonableness. As the
main theory of defense that Burkhart committed the killing was not
supported by strong evidence, it was within the wide range of competence
and trial strategy to argue that in the event the jury believed the
prosecution, it should consider that the stabbing was in self-defense...
9

C.

Ninth Circuit Proceedings.
The state appealed the district court’s judgment, arguing that petitioner’s

case was “materially” distinguishable from Chambers on the “facts” as no witnesses
had identified [Burkhart] and had only identified petitioner. At oral argument on
October 15, 2009, prosecutor, Richard Minatoya, argued: (Transcript: pp. 8-ll)
MR. MINATOYA: “...In this case, the eyewitnesses ...identified the Petitioner,
not anybody else. There's nothing to tie this third party,
Mr. Burkhart to the location...There's no corroboration,
and that's the main point.”
On February 19, 2010, a panel reversed the district court's judgment in
Christian v. Frank, 595 F.3d. 1076 (9th Cir. 2010), and denied a COA on all
remaining claims. Christian v. Frank, 365 F. App.'x 877 (9th Cir. 2010).
The Hawaii Supreme Court noted...unlike in Chambers, no eyewitness
linked Burkhart with the scene of the crime. Id. at 262. On the contrary,
the Hawaii Supreme Court noted that the only two eyewitnesses present
at the murder, Seidel and Schmidt, had both failed to identify Burkhart
in photo lineups and instead had individually identified Christian as the
culprit. ...
The Supreme Court denied review. Christian v. Frank, 131 S.Ct. 511 (2010).
D.

Underlying Rule 60(b) Proceedings in 2011, 2013, and 2017.
In 2011, 2013, and 2017, petitioner filed Rule 60 motions in the district court

seeking to reopen his original habeas application arguing after-discovered fraud on
the court and underlying Brady violations. In 2011 the district court transferred the
motion to the Court of Appeals as an unauthorized SOS application which the Ninth
Circuit denied without discussion. In 2013, petitioner refiled his Rule 60(d)(3)
motion, presenting argument that the district court had subject matter jurisdiction

10

pursuant to Gonzalez. Acknowledging jurisdiction, the district court ordered the
state to produce specific Brady materials in 2014 and again in 2015. (Dkt's. #294;
#318). Respondents contemptuously defied the court’s orders.
Then, months after the hearings, for the first time in written closing
argument on July 20, 2015, the State reversed its legal position it had argued for
two decades. In a judicially binding admission, the state conceded that its key
witness at trial, Phillip Schmidt, had “initially” identified a photograph of Burkhart
after the murder. Advancing the fraudulent representations made during the
habeas proceedings—notwithstanding the Ninth Circuit appellate proceedings—the
state’s attorneys falsely represented to the Rule 60 court that “all information” of
Schmidt’s identification of Burkhart was disclosed to the defense at petitioner’s
trial. Shifting responsibility, the attorneys blamed trial counsel for failing to use
Schmidt’s identification of Burkhart in petitioner’s defense. (Dkt. #391).
The District Court denied relief without holding the state to its burden of
proof and without ruling on petitioner’s Brady claims on December 28, 2015. (Dkt.
#406). The Ninth Circuit denied collateral review. In 2016, petitioner moved in the
district court under Rule 60(b)(3)(6) to admit new evidence received from trial
counsel refuting the state’s claim that Schmidt’s identification of Burkhart was
disclosed to the defense. (Dkt. #434) (Declaration of Anthony Ranken).
If this critical evidence in favor of Taryn Christian had been produced,
it certainly would have changed the manner in which I chose to defend
Taryn Christian in this case, and I believe it would have undoubtedly
had a significant impact upon the deliberations of the jury, in support
of his actual innocence.

ll

Trial counsel’s declaration independently corroborated the events and
testimony of the trial record, confirming an effort by the state to suppress a key
material “fact” from the defense and the trial court which dramatically contradicted
the state’s theory of the case. The District Court denied relief without addressing
the state’s reversal of its position after two decades, and without deciding the merits
of petitioner’s Brady claims—consequently, creating an untenable procedural
posture in petitioner’s case.
On May 14, 2018, the Supreme Court decided McCoy v. Louisiana, 584 U.S.
_(2018). Petitioner filed a timely Rule 60(d)(1) independent action in the district
court invoking McCoy and presenting argument demonstrating ‘a grave miscarriage
of justice’ and exceptional circumstances under the high standard announced in
United States v. Beggerly. 524 U.S. 38 (1998). The District Court transferred the
Rule 60(d)(1) to the Ninth Circuit as an unauthorized successive “application” in
January 2019. Twenty-three months later, the Ninth Circuit issued a decision
designating the Rule 60(d)(1) motion as an unauthorized “application” and denied
relief. However, the panel’s decision erred by manifestly misstating the record,
fundamental to its McCoy analysis in its “gatekeeping” procedure under § 2244(b).
Moreover, in a footnote of its decision, the Ninth Circuit arbitrarily disregarded the
exceptional posture of the case governed by precedent in Stewart v. MartinezVillareal, 523 U.S. 637 (1998), where petitioner’s Brady claims have never been
adjudicated by the district court. Petitioner’s request for rehearing was denied on
December 30, 2020.

12

REASONS FOR GRANTING THE PETITION
The All Writs Act, 28 U.S.C. § 1651, authorizes the Supreme Court to issue
extraordinary writs in its discretion. “To justify granting any such writ, the petition
must show that the writ will be in aid of the Court’s appellate jurisdiction, that
exceptional circumstances warrant the exercise of the Court’s discretionary powers,
and that adequate relief cannot be obtained in any other form or from any other
court.” Sup. Ct. R. 20.1. See also U.S. Alkali Export Ass’n v. United States, 325 U.S.
196, 201-02 (1945); De Beers Consol. Mines, Ltd. v. United States, 325 U.S. 212, 217
(1945). The Court may grant a petition for mandamus in its discretion, so long as it
has jurisdiction over the matter. As the Court described in Cheney v. U.S. Dist.
Court for the Dist. of Columbia, 542 U.S. 367, 380 (2004), three conditions must be
satisfied before such an extraordinary writ must issue: (l) the party must have no
other adequate means to attain the relief he deserves, (2) the party must satisfy the
burden of showing that his right to issuance of the writ is clear and indisputable,
and (3) the issuing court must be satisfied that the writ is appropriate under the
circumstances. Id. at 380-81. Petitioner satisfies the three conditions.
1. Petitioner Cannot Obtain Relief from Any Other Court or Forum.
The Court will not grant an extraordinary writ if another avenue of relief
remains available. Sup. Ct. R. 20.1. See Cheney, 542 U.S. at 380-81. Petitioner
lacks a clear procedural vehicle to challenge the Ninth Circuit’s order in that court.
The relief petitioner seeks, a writ vacating the unlawful panel Order, cannot be
granted by any other court.

13

2. The Panel in its Decision Exceeded the Scope of its Statutory Authority
Under 28 U.S.C. § 2244(b).
A writ of mandamus is appropriate where a party seeks to enforce an
appellate court judgment in a lower court or to prevent a lower court from
obstructing the appellate process. See Will v. United States', 389 U.S. 90, 95-96
(1967); United States v. US. Dist. Ct. for S.D. ofN.Y., 334 U.S. 258, 263 (1948).
In this case, the three-judge panel effectively obstructed the appellate process
by exceeding its statutory authority in its very limited “gatekeeping” function under
28 U.S.C. § 2244(b). Petitioner submits there is no logical explanation for the court’s
divergent interpretation of the statute. First, the panel defied this Court’s precedent
in Gonzalez v. Crosby, (2005) upon which petitioner’s Rule 60(d)(1) relies in
distinguishing a Rule 60 motion from that of a SOS habeas petition. Second, the
panel disregarded the district court’s habeas judgment altogether, (the only federal
court to decide petitioner’s [autonomy] claim), and instead, assumed the district
court’s role as fact-finder—to then £nd “facts” outside the record—ultimately
rendering the habeas judgment meaningless. Third, the panel refused to even
consider the exceptional procedural posture of the case governed by Stewart v.
Martinez-Villareal, 523 U.S. 637 (1998). Under Martinez-Villareal, petitioner is
entitled to an adjudication of his Brady claims that were raised in his original
habeas application and subsequent Rule 60 motions by the district court in the first
instance. Here, the state’s Brady violations are undeniably intertwined with
petitioner’s Sixth Amendment [autonomy] claim that he seeks to reopen in the
district court.
14

Lastly, the Ninth Circuit denied petitioner’s transferred Rule 60(d)(1)
independent action on the basis that “the Supreme Court has not made [McCoy]
retroactively applicable to cases on collateral review.” The panel’s decision did not
consider the fact that California has designated McCoy as being retroactive, thereby
creating a substantial federal right protected by the Fourteenth Amendment.
Petitioner has a “clear and indisputable” right to the requested writ and exceptional
circumstances justify its issuance. Cheney, 542 U.S. at 380; see SUP. CT. R. 20.1.
3. Mandamus Aids the Court’s Appellate Jurisdiction When It Prevents a
Lower Court from Exceeding Its Lawful Authority.
Importantly, the panel’s construction that a Rule 60(d)(1) independent action
constitutes an unauthorized SOS “application” subject to the constraints of 28
U.S.C. §2244(b), warrants review. A petition for a writ of mandamus under 28
U.S.C. § 1651(a) “must show that the writ will be in aid of the Court’s appellate
jurisdiction... Sup. Ct. R. 20.1. Mandamus aids the Court’s appellate jurisdiction
when it prevents a lower court from exceeding its lawful authority. “‘The traditional
use of the writ in aid of appellate jurisdiction both at common law and in the federal
courts has been to confine [the court against which mandamus is sought] to a lawful
exercise of its prescribed jurisdiction.’” Cheney, 542 U.S. at 380 (quoting Roche v.
Evaporated Milk Ass'n, 319 U.S. 21, 26 (1943)). This is what happened here.
ARGUMENT
I.

THE COURT SHOULD GRANT A WRIT OF MANDAMUS IN THE RARE
CIRCUMSTANCE WHERE THE STATUTE OF 28 U.S.C. § 2244(b)(3)(E),
ON ITS FACE, AS APPLIED HERE, IS UNCONSTITUTIONAL.
In the circumstances presented, it is illogical that Congress intended that 28
15

U.S.C. § 2244(b)(3)(E) would bar a court of appeals “the means to correct errors” in
its own judgment. The Court has explained that the constitutional scope of the writ
“entitles the prisoner to a meaningful opportunity to demonstrate that he is being
held pursuant to ‘the erroneous application or interpretation’ of relevant law.”
Boumediene, 553 U.S. at 779 (quoting I.N.S. v. St. Cyr, 533 U.S. 289, 302 (2001)).
Without meaningful review, the writ’s goals of preserving individual rights cannot
be realized. Meaningful review must include “the means to correct errors.” Id. at
786. In Gonzalez v. Crosby, 545 U.S. 524 (2005), this Court adopted a functional
approach, focused on the substance of a state prisoner’s submission for determining
whether a post-judgment submission presented under Federal Rule of Civil
Procedure 60(b) constitutes a second or successive habeas application. The panel
decision in this case rejected Gonzalez, and rests solely on the operation of section
2244(b)’s gatekeeping function.
A. As a Prima Facie Matter, Petitioner’s Sixth Amendment Claim Argued
in his Rule 60(d)(1) Independent Action and Supported by the District
Court’s 2008 Habeas Judgment Plainly “Relies On” McCoy.
As a prima facie matter, petitioner’s § 2254 Sixth Amendment [autonomy]
claim presented in his Rule 60(d)(1) independent action—a decade after the district
court denied habeas relief, plainly “relies on” McCoy. As the record clearly
demonstrates, trial counsel gambled petitioner’s fate by overriding his express
desire to maintain his innocence against the State’s charges. It has long been
recognized that where a criminal defendant exercises his constitutional right to
plead “not guilty,” as petitioner did, his lawyer has an obligation to “structure the

16

trial of the case around his client’s plea.” Wiley v. Sowders, 647 F.2d 642, 560 (6th
Cir. 1981). This, Mr. Ranken clearly failed to do.
Under 28 U.S.C. § 2244(b)(3)(C), a state prisoner must file in the appropriate
U.S. Court of Appeals an application for authorization to file a SOS habeas petition
in the district court. If the application makes a prima facie showing of satisfying
certain gatekeeping provisions of the AEDPA, the court can grant authorization to
allow the district court to hear the claims in the first instance. The Court of Appeals
does not, however, examine the merits of the claims in considering whether to grant
authorization. Such a motion must be decided “by a three-judge panel of the court of
appeals,” id. § 2244(b)(3)(B), “not later than 30 days after the filing of the motion,”
id. § 2244(b)(3)(D), and the panel’s decision on the motion “shall not be appealable
and shall not be the subject of a petition for rehearing or for a writ of certiorari,” id.
§ 2244(b)(3)(E).
A “prima facie showing” is “a sufficient showing of possible merit to warrant a
fuller exploration by the district court.” Woratzeck v. Stewart, 118 F.3d 648, 650
(9th Cir. 1997) (per curiam) (quoting Bennett v. United States, 119 F.3d 468, 469
(7th Cir. 1997)). The court will grant the application “[i]f in light of the documents
submitted with the application it appears reasonably likely that the* application
satisfies the stringent [statutory] requirements for the filing of a second or
successive petition.” Id. (quoting Bennett, 119 F.3d at 469). In nearly all cases, this
is intended to be the only decision on whether the petitioner may file his successive
petition. The Court of Appeals’ decision that the petitioner has made a prima facie

17

case that he can meet the criteria, does not establish that he has actually met them.
That issue is determined by the district court and subject to review in the usual
course of proceedings. See § 2244(b)(4). Instead of the usual decision by the district
court and review by the Court of Appeals, this unique statute has the three-judge
appellate panel determine the existence of a prima facie case as the first step. See §
2244(b)(3)(A)-(C). But by its terms, section 2244(b) imposes on the petitioner only a
‘light burden.” In re Ho&ier, 870 F.3d 301, 307 (3d Cir. 2017). In Henry v.
Spearman 899 F3d 703, 705*08 (9th Cir. 2018), the Ninth Circuit held (“[I]t is for
the district court to determine whether the new rule extends to the movant’s case,
not for this court in this proceeding.”); In re Hubbard, 825 F.3d 225, 231 (4th Cir.
2016). See also In re Williams759 F.3d 66, 72 (D.C. Cir. 2014) (“[Wlhether the new
rule... extends to a prisoner like [petitioner] ... goes to the merits of the motion and
is for the district court, not the court of appeals.”).
Petitioner has met the criteria by showing that pursuant to McCoy, the
District Court’s reasoning in its 2008 judgment that held trial counsel’s change in
the defense’s position from arguing innocence to conceding guilt was “reasonable”
under Stricklandwas manifestly wrong. Plainly, it is wrong because it reflects the
district court’s erroneous conclusion that defense counsel, not the defendant,
controlled the decision whether to admit guilt. Such reasoning posited a conflict
between the Sixth Amendment right to defend against the charges and that of
having the assistance of counsel.
Even if the Court determined that a Rule 60(d)(1) independent action filed

18

pursuant to Beggerly, was also subject to the constraints of § 2244(b), the trial
record supported by the habeas judgment demonstrates that petitioner has met his
‘light burden” and made a prima-facie showing that his case “relies on” McCoy.
B.

The Ninth Circuit’s Decision Creates Exceptional Circumstances
Warranting Mandamus'-

The Ninth Circuit decision grossly misstated the material “facts” in the
record, and when alerted to its error by petitioner, held that 28 U.S.C. 2244(b) bars
rehearing. The court below was wrong, and this Court should reverse.
(i)

The Three-Judge Panel Exceeded its Statutory Authority in its
“Gatekeeping” Function by Assuming the Role as Factfinder in the
First Instance—To Find“Facts” Outside the Record—Ultimately
Substituting its Own Judgment and Rendering the Habeas
Proceedings Meaningless.

The doubtful legitimacy of the order issued in this case presents a question of
exceptional importance that should be resolved by this Court. Congress intended
that appellate courts sit in panels on the theory that three or more judges, acting as
a unit, are less likely to make an error in judgment than one judge sitting alone.
Structurally, it means that it takes at least two court of appeals judges to overturn
a decision of a lower court, signifying that a single court of appeals judge does not
have the power to reverse a single trial court judge.
Here, the panel exceeded its statutory authority by disregarding the habeas
judgment and instead, took the unprecedented step to £nd “facts” outside the
record. Assuming the role as factfinder and creating “facts” outside the record, the
panel’s decision rests on an illusory premise that “throughout the trial” counsel
argued “Christian was innocent and “contested” the state’s identification of
19

Christian as the one who stabbed Cabaccang. ” (App. B at 19). The panel’s decision
that trial counsel “contested”the state’s identification of petitioner is contrary to the
record, as Mr. Ranken admitted identification throughout his summation. As
documented, counsel told the jury that petitioner was the person seen by Schmidt.
... Phil Schmidt sa w Taryn leaving the area. We don’t dispute that he
did see Taryn under street light with the flanneljacket that Taryn wore.
He saw Taryn leave the area ...
Nearing the end of his argument, counsel again admitted identification.
... And remember finally what Phil Schmidt said. Phil Schmidt told you
that Vilmar was trying to get up ...First he got up to show Phil to look
at Taryn - the man he saw Peeing.
Indeed, counsel unquestionably relieved the prosecution of its burden when
he told the jury that petitioner was, in fact, the person Schmidt saw walking away
from the scene, despite that petitioner did not match Schmidt’s description given to
police. Counsel also argued petitioner had unlawfully entered Cabaccang’s vehicle
with the intention of committing theft. In another instance of counsel’s concession
that petitioner was the perpetrator he states: “He’s never been in trouble...He's
facing shame ofbeing caught for stealing... "Again, when counsel made this claim to
the jury, implying and confirming for them that his client was a thief and had
unlawfully entered Cabaccang’s vehicle, he ceased to function as defense counsel.
A defendant’s Sixth Amendment right to control “his defence” is at the heart
of McCoy. 138 S. Ct. at 1509 (quotation marks omitted). If the defendant decides
that his objective is to assert innocence—whatever his basis for doing so might be
that is his objective, and “his lawyer must abide by that objective and may not

20

override it by conceding guilt.” Id. Petitioner just as much as McCoy, “ha[d] the
right to insist that counsel refrain from admitting guilt.” McCoy, 138 S. Ct. at 1505.
Contrary to the panel’s reasoning under McCoy, trial counsel’s conduct cannot be
considered a tactical admission in order to persuade the jury to focus on a defense,
“such as the one of self-defense in the alternative.” (App. B at 21). The panel’s
decision is in square conflict with McCoy. Only after the damage was done, did
counsel argue in a motion for new trial that “If allowed to testily, Defendant would
have denied being the person who stabbed Vilmar Cabaccang and would have told
the jury about the presence ofa third man at the scene of the stabbing. ”
There is no explanation for the panel’s divergent course of action in its
“gatekeeping” function, particularly, where the courts of appeals’ review is limited
to the [application] and its supporting documents. See Bennett, 119 F.3d at 469.
The Court recognized in Felker v. Turpin, 518 U.S. 651 (1996), the removal of
certiorari jurisdiction did not preclude review by an original habeas writ, on the
principle that “[r]epeals by implication are not favored ...” 518 U. S., at 660. On the
same basis, § 2244(b)(3)(E) “does not purport ... to limit [this Court’s] jurisdiction
under the All Writs Act, 28 U. S. C. § 1651.” Id., at 666 (Stevens, J., concurring).
Indeed, interpretation of the statute to preclude such review would reopen “the
question whether the statute exceeded Congress’s Exceptions Clause power,” id., at
667 (Souter, J., concurring). Clearly, where statutory avenues other than certiorari
for reviewing a gatekeeping determination are closed, the question arises is
whether the statute exceeded Congress's Exceptions Clause power.

21

The substantial possibility that a federal court has defied an act of Congress
and acted outside its statutory authority, raises a grave question calling for
definitive resolution by this Court.
II.

THE COURT SHOULD GRANT MANDAMUS WHERE THE DECISION
IN STEWART V MARINEZ- VILLAREAL, (1998), CONTROLS THE
POSTURE OF THE CASE-WHEN THE FAILURE TO DO SO WILL
PRECLUDE PETITIONER FROM EVER RECEIVING A RULING
OF HIS CONSTITUTIONAL CLAIMS ON THE MERITS.
A. Pursuant to Stewart v. Martinez-Villareal, Petitioner’s Rule 60(d)(1)
Independent Action Cannot be Designated as an Unauthorized
Successive Habeas Corpus Petition.
Petitioner’s Rule 60(d)(1) independent action filed in the district court, is

analogous to the motion at issue in Stewart v. Martinez-Villareal, 523 U.S. 637
(1998), where the Supreme Court found the Ninth Circuit correctly held that
respondent was not required to get authorization to file a “second or successive”
application before his Ford claim could be heard. The Court refused to construe a
second habeas petition as being second or successive even though the ground
raised—competency to be executed—had been raised in the original petition. Rather
than read the second and successive ban literally at the expense of a first habeas
corpus ruling on the issue (implicating constitutional concerns), the Court instead
seized upon the fact that the district court never ruled on the merits of the original
claim. 523 U.S. at 645. This allowed the Court to find that the second filing was not
successive and permitted the claim to be heard, despite the apparent statutory
prohibition. Id. Discussing the rationale behind Martinez-Villareal, the Court in
Panetti v. Quarterman, 551 U.S. 930 (2007), explained the unusual circumstance

22

presented by the Ford claims: While the later filing “may have been the second time
that [the prisoner] had asked the federal courts to provide relief on his Ford claim,”
i

the Court declined to accept that there were, as a result, “two separate applications,

i

[with] the second ... necessarily subject to § 2244(b).” The Court instead held that,
in fight of the particular circumstances presented by a Ford claim, it would treat the

i

two filings as a single application. The petitioner “was entitled to an adjudication of

1

all of the claims presented in his earlier, undoubtedly reviewable, application for

i

federal habeas relief.” 551 U.S. at 944-45 (quoting Martinez-Villareal, 523 U.S. at

c

643). Rather than limiting Martinez-Villareal to exempting only those Ford claims

a

that were actually brought as (unripe) claims in an initial petition, Panetti couched

E

Martinez-Villareal in a broader context. The Court concluded that “Congress did not

E

intend the provisions of AEDPA addressing ‘second or successive’ petitions to
govern a fifing in the unusual posture presented: a §2254 application raising a Ford

n

based incompetency claim filed as soon as that claim is ripe.” Id. at 945. Thus, the

a

Court created the second-in-time, first-petition exception to ensure that the

\

AEDPA’s Section 2244(b) did not infringe upon the constitutional scope of the writ.

6

Like the Abrtf-based motion in Martinez-Villareal, petitioner’s Stricklandr

g

based motion does not raise an entirely new claim. Instead, it seeks to revive an
existing Sixth Amendment claim. Relying on Martinez-Villareal, petitioner’s Rule
60(d)(1) independent action cannot be designated a “second or successive” § 2254
petition requiring authorization, because petitioner’s Strickland-based [autonomy]

F,

claim is inextricably interwoven with his Brady claims, which the district court

23

impeach a key witness is a cardinal Brady violation. See Giglio v. United States,
405 U.S. 150, 154 (1972). Concealment of impeachment evidence concerning
eyewitnesses is especially prejudicial because eyewitness identifications are
“particularly persuasive” to juries. Boyette v. Lefevre, 246 F.3d 76, 92 (2d Cir.
2011). Where identification of the assailant is the key issue, impeaching an
eyewitness “would take out the heart of the State’s case and greatly undermine the
guilty verdicts.” Bowen v. Maynard’ 799 F.2d 593, 610 (10th Cir. 1986); see also
Crivens v. Roth, 172 F.3d 991, 998, 999 (7th Cir. 1999) (impeachment would have
“severely damaged” the “heart of the state’s case”). Thus, this Court has explained
that “’[i]f for example, one of only two eyewitnesses to a crime had told the
prosecutor that the defendant was definitely not its perpetrator, and if this
statement was not disclosed to the defense, no court would hesitate to reverse a
conviction resting on the testimony of other eyewitnesses.’” Agurs, 427 U.S. at 113
n.2l(quoting Victor Bass, Comment, Brady v. Maryland and the Prosecutor's Duty
to Disclose, 40 U. Chi. L. Rev. 112, 125 (1972)).
It is therefore incumbent on the state to disclose a witness’s original
identification that conflicts with his later trial testimony. The fact that the state
suppressed identifications of two corroborating eyewitnesses makes this case even
more worthy of reversal. The state’s ‘independent’ witness’s “credibility was not just
a major issue; it essentially was the only issue that mattered,” Serv. Deli, 151 F.3d
at 944. Evidence corroborating a third-party’s confessions is inestimably more
compelling because “no other statement is so much against interest as a confession

26

to murder.” Donnelly, 228 U.S. at 278 (Holmes, J., dissenting); accord Scott, 303
F.3d at 1232. Petitioner’s case, by any legal definition, is extraordinary.
B.

The Ninth Circuit Erred in Holding That a Rule 60(d)(1) Independent
Action Constitutes an Unauthorized “Second or Successive” Habeas
Application as a Matter of Law, in Square Conflict with Decisions of
this Court and of Other Circuits.

Invoking McCoy, petitioner’s Rule 60(d)(1) independent action is proper in
the absence of any other remedy at law to afford the district court the opportunity
to reopen the original habeas proceeding to address its manifest error in failing to
recognize petitioner’s right of autonomy by insisting that trial counsel not concede
guilt against his express wishes. To obtain relief from a judgment through an
independent action, parties must establish equitable requirements: (l) a judgment
which ought not, in equity and good conscience, be enforced; (2) a good defense to
the alleged cause of action on which the judgment is founded; (3) fraud, accident, or
mistake which prevented the defendant in the judgment from obtaining the benefit
of his defense; (4) the absence of fault or negligence on the part of defendant; and (5)
the absence of any remedy at law. Nowhere in its decision did the panel address the
“indispensable elements” required for an independent action.
The Supreme Court addressed the topic of Rule 60 independent actions in
United States v. Beggerly, 524 U.S. 38, 118 S.Ct. 1862, 141 L.Ed.2d 32 (1998),
accord Pickford v. Talbott, 225 U.S. 651, 657, 32 S.Ct. 687, 56 L.Ed. 1240 (1912)
(available when enforcement of the judgment is “manifestly unconscionable”). The
Court summed up the standard by stating that “an independent action should be
available only to prevent a grave miscarriage of justice.” Id at 47. In Solomon v.
27

DeKalb County, Georgia, the Eleventh Circuit addressed Rule 60 independent
actions. 154 Fed. Appx. 92 (llth Cir. 2005). The court observed that the Rule 60
independent action gives the court “the power to set aside a judgment whose
integrity is lacking...” See also Gonzalez, 545 U.S.

., 125 S. Ct. at 2648. As the

Court has held, a Rule 60(b) motion is not a second or successive habeas petition
(“SSHP”). “[T]he difference is explained by the relief that the applicant seeks.”
Abdur’Rabman v. Bell, 537 U.S. 88, 94 (2003) (STEVENS, J„ dissenting from
dismissal of certiorari as improvidently granted). “[A] motion for relief under Rule
60 of the Federal Rules of Civil Procedure contests the integrity of the proceeding
that resulted in the district court’s judgment. ...[A] rule 60(b) motion is designed to
cure procedural violations in an earlier proceeding—here, a habeas corpus
proceeding—that raise questions about that proceeding’s integrity.” Abdur’Rahman
v. Bell, 537 U.S. at 95 (STEVENS, J., dissenting) (quoting Mobley v. Head, 306 F.3d
1096 (llth Cir. 2002) (Tjoflat, J., dissenting) (vacated panel opinion)).
As applied in the habeas context, the “factual predicate [of a Rule 60(b)
motion] deals primarily with some irregularity or procedural defect in the
procurement of the judgment denying habeas relief.” Rodwell v. Pepe, 324 F.3d 66,
70 (1st Cir. 2003). 366 F.3d at 1291-92 (Tjoflat, J., specially concurring in part and
dissenting in part, Barkett, Wilson, JJ., joining), JA-89-90. “An SSHP,” in contrast,
“is a different species Dllike a first petition for a writ of habeas corpus, an SSHP is a
collateral attack upon the applicant’s conviction or sentence.” Gonzalez, 366 F.3d at
1292 (Tjoflat, J., specially concurring in part and dissenting in part, Barkett.

28

Wilson, JJ., joining).
The Ninth Circuit failed to find this distinction meaningful when it decided
that petitioner’s Rule 60(d)(1) constituted a “successive” habeas application then
applied 28 U.S.C. 2244(b)(1) to jurisdictionally bar the recharacterized motion. As
the majority of circuits have held, given that a Rule 60(b) motion is not a SSHP, 28
U.S.C. 2244(b)(1) simply does not apply to restrict filings under the Rule.
The decision below failed to determine that petitioner could not demonstrate
that the district court’s decision subjected him to a “grave miscarriage of justice,”
was “manifestly unconscionable,” or that his case was one of “unusual and
exceptional circumstances.” Here, like the situation in Castro v. United States, 540
U.S. 375 (2003), petitioner’s Rule 60(d)(1) was valid as a procedural matter, and the
claim it raised was no weaker on the merits when presented under Rule 60(d)(1)
than when presented under §2254. The recharacterization was therefore
unquestionably improper and petitioner should be relieved of its consequences.
(i) Failing to Heed the Doctrine of Constitutional Avoidance Raises “Grave
and Doubtful Constitutional Questions” Concerning Suspension of the
Great Writ and Due Process.
Certainly, the Ninth Circuit’s formulation of a categorical rede raises “grave
and doubtful constitutional questions” concerning suspension of the Great Writ in
violation of U.S. Const, art. I sec. 9 and, in a separate context, denial of Due Process
of Law in violation of the Fifth Amendment. This is, of course, a particularly serious
matter that arises when a first habeas corpus application is decided without a
ruling on a substantial constitutional claim.

29

S.Ct. 2519, 159 L.Ed. 2d 442 (2004). Smith discussed “[i]n deciding retroactivity
issues, a court must first find whether the Supreme Court decision in question
announced a 'new rule.’” Smith, 49 Cal.App.5th 377 citing Teague v. Lane, 489 U.S.
288, 300-301 (1989). “If a court determines that a Supreme Court decision
announces a new constitutional rule, it must then determine whether that new rule
satisfies an exception to the general prohibition against the retroactive application
of new rules to cases on collateral review.” Smith, 49 Cal.App.5th 377, 391 citing
Teague, 489 U.S. at pp. 305-310. “New substantive rules generally apply
retroactively, while new rules of criminal procedure generally do not.” Smith, 49
Cal.App.5th 377, 391 citing Schriro, 542 U.S. at pp. 351-52, 124 S.Ct. 2519.
Finally, if this Court were to conclude that McCoy’s rule is both new and not
substantive, it should hold that it is retroactive as a “watershed” rule, “impheating
the fundamental fairness and accuracy of criminal proceedings.” Whorton, 549 U.S.
at 416 (quotation marks omitted). It is a foundational principle of our system of
criminal justice that adversarial testing is necessary to prevent an impermissibly
large risk of inaccurate conviction. “The very premise of our adversary system ... is
that partisan advocacy on both sides of a case will best promote the ultimate
objective that the guilty be convicted and the innocent go free.” Herring v. New
York, 422 U.S. 853, 862 (1975). When counsel admits guilt against the defendant’s
express wishes, conviction is virtually guaranteed—irrespective of the defendant’s
actual guilt or innocence.

31

CONCLUSION
For the forgoing reasons, the Court should grant the petition for a writ of
mandamus to consider the important questions presented by this petition.
Respectfully submitted.

IWj
L
T&ryw Christian,
Petitioner pro se

32

